                                            NATIONAL SCIENCE FOUNDATION 

                                             OFFICE OF INSPECTOR GENERAL 

                                               OFFICE OF INVESTIGATIONS 

                                                            /
                                       CLOSEOUT MEMORANDUM

Case Number: 109020004                                                              Page 1 of 1




                                                                                                  1
       OIG opened this investigation based on an allegation that a Principal Investigator (PI)
       on an NSF award 2 had not disclosed to the awardee institution 3 his interest in a small
       business he had founded with his wife. 4 It was also alleged that the PI's company had
       misused funds received under a Small Business Innovation Research award from NSF.
       We requested records from the awardee institution and the small business. Review of
       those records disclosed that (1) the awardee institution was aware of the PI's interest in
       the small business and acted to mitigate any conflict of interests; and (2) there was no
       evidence indicating that NSF award funds were misused or misappropriated.

       During the course of this investigation, OIG received numerous complaints by the PI
       and his wife 5 alleging misconduct by employees of the awardee institution and NSF
       officials. The allegations involved project management decisions that were not within
       the purview of OIG. OIG had attempted to meet with the PI and his wife regarding their
       concerns and allegations but they declined to do so.

       This investigation is closed.




                                                                                                      .   .
                                                                                                          I




NSF OIG Form 2 (11/02)
